(June 22, 2021 / 08:31:32)

121264-2_BMO-50360071_ConsumerRewardProgram

BMO Harris Bank®
Consumer Rewards Mastercard®

Credit Cards

BMO Harris
Rewards
Program Rules
SM

(June 22, 2021 / 08:31:32)

121264-2_BMO-50360071_ConsumerRewardProgram

BMO Harris Rewards
Program Rules

SM

BMO Harris Bank Platinum Rewards Mastercard®
BMO Harris Bank Premium Rewards Mastercard®
BMO Harris Premier Services Premium Rewards
Mastercard®
BMO Wealth Management Premium Rewards
Mastercard®

These Rules govern Cardholders’ participation in
the BMO Harris Rewards Program (“Program”).
This Program allows Cardholders to earn points
that may be redeemed for various Rewards.
CONTENTS
General
Earning points
Redeeming points
Rewards
Statement credits

“Cardholder” means the accountholder of an eligible
credit card (“Account”) issued by BMO Harris Bank N.A.
(“Bank”) except that for Accounts with more than one
borrower, “Cardholder” means the Primary Cardholder
and Co-Borrower, where applicable. “Cardholder” does
not include Authorizer User(s). For purposes of these
Rules, we may refer to the Bank as “we”, “us” and “our”
and the Cardholder as “you” and “your.” Eligible cards
include a BMO Harris Bank Platinum Rewards Mastercard,
a BMO Harris Bank Premium Rewards Mastercard, a BMO
Harris Premier Services Premium Rewards Mastercard,
or a BMO Wealth Management Premium Rewards
Mastercard (each a “Rewards Card”) issued for personal
and not business use. Points earned under the Program
will be credited to the Account of the Cardholder. Only
the Cardholder is permitted to authorize redemptions
1

Credit Cards

(June 22, 2021 / 08:31:32)

121264-2_BMO-50360071_ConsumerRewardProgram

under the Program. By using or accepting an Account,
you agree to these Rules and any changes, additions
or deletions to them. Go to bmoharris.com/pdf/credit/
rewardsconsumerpoints.pdf to view the most recent
version of the Rules.
We issue and administer all Accounts. We manage the
Program while third party service providers (“Third Party
Service Providers”) administer the Program. Fulfillment
of all rewards is handled by Third Party Service Providers.
These Rules and Account transactions are also subject
to other agreements you may have with us, including
your Cardholder Agreement and other agreements
governing the Account(s) referenced in the Cardholder
Documents (“Governing Agreements”). As a reminder,
your Cardholder Agreement contains a provision that
addresses arbitration of any disputes regarding your
account, including your participation in this Program.
Also, your Governing Agreements control if anything
in these Rules are inconsistent with the terms of the
Governing Agreements.
The following are the general terms and conditions of
the Program and are subject to change by the Bank at
any time without notice. See the current reward offers at
bmoharrisrewards.com for specific terms and conditions
applicable to each reward.
General
1. We offer the Program at our sole discretion. We
reserve the right to change these Rules and
rewards and any fees associated with the Program
at any time, for any reason and without notice, or
may modify, suspend or end the Program, cancel
outstanding points or change the redemption value
of points or availability of rewards. We may reverse
any points awarded to you in error, regardless of
cause, and such a reversal may cause you to have
negative points. If your Account is closed with
a negative points balance, we may charge your
Account for the value of those points. We assume
no liability for any such changes.
BMO Harris RewardsSM Program Rules

2

(June 22, 2021 / 08:31:32)

121264-2_BMO-50360071_ConsumerRewardProgram

2. We reserve the right to cancel your participation
in the Program, close your Account and cause you
to forfeit your points without notice in the event
of fraud or abuse of the Program or Account, your
violation of the Rules, or patterns suggesting
improper use of the Program.
For the purpose of clarification, transactions that we
determine in our own discretion are made for the
purpose of abusing the Program are not eligible to
earn points and we may reverse any points that were
accrued as a result of fraud or abuse of the Program.
For further clarification, abuse of the Program
includes attempting to earn points not allowed under
the Program or by making charges that are outside
the scope of usual or customary credit card usage.
3. We reserve the right to suspend your participation
in the Program, which may include the accrual of
additional points and the redemption of points for a
reward, if your Account is not in good standing. Good
standing means that your Account is not canceled,
past due or otherwise in default under the terms of
any agreements you have with us, including these
terms and conditions. Upon bringing your Account
into good standing, your participation in the Program
will be reinstituted, but points previously forfeited or
eliminated will not be reinstated.
4. You authorize us (which includes, for the purposes
of this paragraph, our agents and representatives)
to contact you using automatic telephone dialing
systems, artificial or prerecorded voice message
systems, email and text messaging systems in
order to provide you with information regarding the
Program and your Account, including information
about missed payments, the suspected misuse of
your Card, services or rewards received through the
Program, or general servicing items. You authorize us
to make such contacts using any telephone numbers
(including wireless, landline and Voice over Internet
Protocol numbers) you have supplied or will supply
to us in connection with the Program or your Account
or any other account you may have or will establish
3

Credit Cards

(June 22, 2021 / 08:31:32)

121264-2_BMO-50360071_ConsumerRewardProgram

with us. You understand that anyone with access to
your telephone may listen to or read the messages
we leave or send you, and you agree that we will
have no liability for anyone accessing such messages.
You further understand that, when you receive a
telephone call or text message, you may incur a
charge from the company that provides you with
telecommunications, wireless and/or data services,
and you agree that we will have no liability for such
charges. You expressly authorize us to monitor and
record your calls with us. You agree that you are the
owner and/or primary user of any telephone number
or email address you provide to us and that you
will notify us if this is no longer true as to any such
telephone number or email address.
5. You are responsible for any tax liability related to
participation in the Program or as a result of points
earned or redeemed.
6. You may be responsible for payment of any departure
taxes, customs fees, checked baggage fees, excess
baggage charges, security taxes, passenger facility
charges, air segment taxes or any other charges
assessed by governmental entities or carriers as a
result of travel redeemed from this Program, as well
as any shipping, courier, fulfillment or certificate fees
associated with rewards under the Program.
7. The Program is void where prohibited by law. We
are not responsible for administering the Program
or providing services under the Program.
8. We are not responsible for errors or omissions in
any Program document. We are not liable to you or
any recipient of services or rewards arising from,
or related to, the services or rewards issued under
the Program. Please consult directly with thirdparty booking, reservations and loyalty programs
regarding your participation in those programs when
you use your BMO Harris Rewards points. We are
not responsible for the non-accrual of credit, award
points, or other benefits concerning non-BMO Harris
Rewards programs.
BMO Harris RewardsSM Program Rules

4

(June 22, 2021 / 08:31:33)

121264-2_BMO-50360071_ConsumerRewardProgram

9. You and any recipient of services or rewards received
through the Program hold us, our affiliates, and Third
Party Service Providers harmless in connection with
any injuries and damages of every kind and nature
arising in connection with or as a result of claiming
and redeeming points and with your receipt of and
use of an reward. You waive and release any and all
rights, demands, losses, liabilities, claims and causes
of action whatsoever that you may now or hereafter
be entitled to assert, including, but not limited to,
any death, injury, loss of enjoyment or other harm or
loss of any nature whatsoever caused by, contributed
to, or arising out of your participation in the Program.
You further agree to hold us, our affiliates and Third
Party Service Providers harmless if a reward vendor
or provider files bankruptcy, or otherwise goes out of
business, after you have redeemed your points for a
reward from the vendor or provider but before you
are able to receive or use the reward.
10. Neither us, our affiliates nor Third Party Service
Providers are responsible for any other party’s
performance in connection with delivering services
to you under the Program. Each service provider may
have its own terms and conditions for the services
you request.
11. Capitalized terms used and not defined herein have
the definitions provided in Governing Agreements.

Summary of Bonus and Earn Rates
Product Name*

Base Earn
Rate

BMO Harris Bank Platinum
Rewards MasterCard

1 point per $1

BMO Harris Bank Premium
Rewards MasterCard

1 point per $1

BMO Harris Premier Services
Premium Rewards MasterCard

1 point per $1

BMO Wealth Management
Premium Rewards MasterCard

1 point per $1

*Products that are eligible for Product Change may have special rules related to earn rates
and some bonuses may not apply. See Earning Points, Section 11 for more information.

5

Credit Cards

(June 22, 2021 / 08:31:33)

121264-2_BMO-50360071_ConsumerRewardProgram

12. We reserve the right to interpret Rules and Program
policies and will be the final authority on point
credits and award qualifications.
Earning Points
1. Base Earn: You will earn one (1) base point for every
one United States dollar ($1.00) in eligible purchases
rounded to the nearest whole dollar (i.e., a $5.49
purchase would round down to $5.00 while a $5.50
purchase would round up to $6.00 prior to being
scored) made on an eligible card. There is no cap on
the amount of base points that can be earned.
2. Bonus Earn:
• Category Bonus Earn:
i.	We may offer you opportunities to earn
bonus points on certain categories of eligible
purchases, such as gas and grocery purchases.
The networks that process your transactions
provide transaction category codes, and in turn,
merchants determine which codes to use when
you make a purchase from them.
 owever, merchants may not use codes
H
that identify certain transactions as eligible
purchases. Further, not every purchase you make
at certain merchants will qualify as an eligible
purchase. For example, a purchase made other
than fuel at a gas station may not be an

Bonus Earn
Categories

Bonus Earn
Rates

Overall Earn
on Bonus
Categories

Anniversary
Bonus

Gas & Grocery

1 point per $1

2 points per $1

10%

Dining, Airfare,
and Hotel

2 points per $1

3 points per $1

15%

Dining, Airfare,
and Hotel

2 points per $1

3 points per $1

15%

Dining, Airfare,
and Hotel

2 points per $1

3 points per $1

20%

BMO Harris RewardsSM Program Rules

6

(June 22, 2021 / 08:31:33)

121264-2_BMO-50360071_ConsumerRewardProgram

 ligible purchase. Because BMO Harris does not
e
control the categories merchants use to identify
transactions, BMO Harris cannot guarantee that
each eligible purchase will accrue bonus points.
ii.	BMO Harris Bank Platinum Rewards Mastercard:
You will earn an additional one (1) bonus point
for every one United States dollar ($1.00) in
eligible gas and/or grocery purchases (bonus earn
category eligible gas and grocery purchases),
rounded to the nearest whole dollar. Bonus earn
is only available on the first $2,500 of net eligible
gas and/or grocery purchases within a calendar
quarter. After the $2,500 cap is met within a
calendar quarter, you will earn at the base rate in
those categories until the next calendar quarter
begins and the cap is reset.
iii.	BMO Harris Bank Premium Rewards Mastercard
and BMO Harris Premier Services Premium
Rewards Mastercard: You will earn two (2) bonus
points for every one United States dollar ($1.00)
in eligible dining, airfare and/or hotel purchases,
rounded to the nearest whole dollar (i.e., a
$150.49 dining purchase would be multiplied by
2 then rounded to determine how many bonus
points you can earn). Bonus points are only
earned on the first $2,500 of net eligible dining,
airfare and/or hotel purchases within a calendar
quarter. After the $2,500 cap is met within a
calendar quarter, you will continue to earn at
the base rate in those categories until the next
calendar quarter begins and the cap is reset.
iv.	BMO Wealth Management Premium Rewards
Mastercard: You will earn two (2) bonus points
for every one United States dollar ($1.00) in
eligible dining, airfare and/or hotel purchases,
rounded to the nearest whole dollar (i.e., a
$150.49 dining purchase would be multiplied by
2 then rounded to determine how many bonus
points you can earn). There is no cap on the
amount of bonus points earned.
7

Credit Cards

(June 22, 2021 / 08:31:33)

121264-2_BMO-50360071_ConsumerRewardProgram

• Anniversary Bonus Earn:
i.	BMO Harris Bank Platinum Rewards
Mastercard: You will earn an Anniversary
bonus equal to ten percent (10%) of total net
purchases made in the calendar year since
the Account’s Anniversary date.
ii.	BMO Harris Bank Premium Rewards
Mastercard and BMO Harris Premier Services
Premium Rewards Mastercard: You will
earn an Anniversary bonus equal to fifteen
percent (15%) of total net purchases made
in the calendar year since the Account’s
Anniversary date.
iii.	BMO Wealth Management Premium Rewards
Mastercard: You will earn an Anniversary
bonus equal to twenty percent (20%) of the
total net purchases made in the calendar year
since the Account’s Anniversary date.
iv.	Your Account must be in good standing at
the time the Anniversary bonus is calculated
in order to earn the Anniversary bonus. The
Anniversary bonus will be applied to the
Account 4 – 6 weeks after your Anniversary
date. For purposes of these Rules, your
“Anniversary” is the date that is twelve
months after the Account’s enrollment date,
and the same date each twelve months
thereafter. Your Account is considered enrolled
in the Rewards program effective on the date
you open your eligible credit card, unless you
change from a non-Rewards card to a Rewards
card, where your enrollment date is the date
of Product Change.
3. Net purchases are the dollar value of goods and
services purchased on an Account minus any credits,
returns or other adjustments as reflected on monthly
billing statements.

BMO Harris RewardsSM Program Rules

8

(June 22, 2021 / 08:31:33)

121264-2_BMO-50360071_ConsumerRewardProgram

4. All credits and/or returns will result in a debit of the
same amount of points that were originally earned.
5. Negative points will post if your returns or credits
exceed your purchases for the monthly billing period.
6. Eligible purchases generally include purchase
transactions on your statement. However,
transactions that are not eligible purchases for
purposes of point calculation include but are not
limited to: cash advances, balance transfers, cash
advances designated as purchases, which includes
for clarity, purchases that can be converted to cash
or cash equivalents, gift cards (including store gift
cards), prepaid cards or cards that can be used for
cash-like or quasi-cash transactions, traveler's checks,
money orders, and purchases of foreign currency,
convenience checks, wire transfers, ATM withdrawals.
Fees and card-related charges posted to an Account,
including late payment fees, annual fees and interest
charges as contained in the applicable Governing
Agreements also are excluded from the calculation of
eligible purchases. Additional transactions excluded
from calculation of eligible purchases include:
gaming-related transactions (including, without
limitation, gambling chips, off-track wagers or
lottery ticket transactions), tax payments, purchases
of digital assets, and any unauthorized charges or
transactions, and any airfare or hotel reservation
booked directly through a third party booking
service. For further clarification, transactions that we
determine in our own discretion are made for the
purpose of abusing the Program are not eligible to
earn points and we may reverse any points that were
accrued as a result of fraud or abuse of the Program
or Account.
7. If the Account is closed for any reason, the Account
will no longer be able to accrue points and all
accrued points not redeemed for that Account will be
available to redeem for 90 days as long as Account is
closed in good standing.

9

Credit Cards

(June 22, 2021 / 08:31:33)

121264-2_BMO-50360071_ConsumerRewardProgram

8. Rewards Card points earned during a billing cycle are
not available for redemption until they are posted on
your monthly billing statement and transferred to your
available points balance. You may access BMO Harris
Rewards online by logging in at bmoharris.com then
clicking “View & Redeem” from the Account details
screen. Your available points balance is also available
by calling the BMO Harris Rewards Redemption
Center (“Redemption Center”) .
9. If you have more than one type of Rewards Card
specifically addressed by these Rules, points earned
on each such Rewards Card may be combined.
Points earned on other BMO Harris Bank rewards
credit cards not addressed by these Rules cannot be
combined with points earned from a Rewards Card.
If you are the Cardholder of more than one Rewards
Card covered by these Program Rules, you may call
the Redemption Center to have your points pooled.
All pooled accounts must be in good standing to
continue to earn and redeem pooled points.
10. Points are not considered your property and cannot
be transferred to any other Account, person or entity.
Points have no cash value. If we learn of the death of
the Cardholder on an Account without a co-borrower,
we may automatically redeem any available points as a
statement credit to the account that earned the points.
11. A request to change your current card type (“Current
Card”) to a different card type (“Product Change Card”)
without opening a new Account is a Product Change
request. Product Change requests are subject to the
terms and conditions provided with a Product Change
request as well as any applicable Governing Agreements.
• Transferring Points:
i.	If both your Current Card and your Product Change
Card are Rewards Cards that earn points (not the
BMO Harris Cash Back Mastercard), the available
points on your Current Card will transfer to your
Product Change Card at a 1:1 rate.

BMO Harris RewardsSM Program Rules

10

(June 22, 2021 / 08:31:33)

121264-2_BMO-50360071_ConsumerRewardProgram

ii.	If your Current Card is a Cash Back Card and your
Product Change Card is a Rewards Card that
earns points, your available cash back balance
will be converted into points by multiplying the
Cash Back balance by 100 and transferred to your
Product Change Card. For example, if your Current
Card has an available cash back balance of $125 at
the time of Product Change, we will multiply $125
by 100 and transfer 12,500 points to your Product
Change Card.
iii.	If your Current Card earns points (not the BMO
Harris Cash Back Mastercard) and your Product
Change Card is a Cash Back Card, your available
points balance will be converted into cash back by
dividing the balance by 100. For example, if you
have an available points balance of 12,500 points
at the time of Product Change, we will divide
12,500 by 100 and transfer $125 cash back to your
Product Change Card.
iv.	If your Current Card earns points or cash back and
your Product Change Card does not earn points or
cash back, you will have 90 days after the date of
Product Change to redeem any available points or
cash back on your Account.
v.	If you request a Product Change, you may
experience a temporary delay in accessing your
available points while we process your request.
• Earning Points:
i.	The base and bonus earn rates for your Product
Change Card will begin with transactions that post
after the date of Product Change.
• Bonus Points:
i.	If you earn an Anniversary bonus with your Card,
we will calculate that bonus using the Rules that
apply to the product that you are in at the time of
your Anniversary.

11

Credit Cards

(June 22, 2021 / 08:31:33)

121264-2_BMO-50360071_ConsumerRewardProgram

ii.	If you complete a Product Change from a Rewards
Card to another Rewards Card, your Anniversary
date does not change. If you complete a Product
Change from a non-Rewards Card to a Rewards
Card, your Anniversary date will be the date of
your Product Change date.
iii.	Unless otherwise specified, a Product Change Card
is not eligible for an Introductory Bonus.
Redeeming Points
1. Points may be redeemed for a variety of rewards, as
indicated in the catalog (“Catalog”) on the Program
website, including airline tickets, vacation packages,
cruises, hotel reservations, merchandise, gift cards,
and statement credits. For a complete listing of
all possible rewards available for redemption, in
addition to their current redemption value, terms
and conditions, the full Catalog is available at
bmoharrisrewards.com. All rewards are subject to
the terms and conditions of the applicable merchant
or manufacturer. Please consult directly with thirdparty booking, reservations and loyalty programs
regarding your participation in those programs when
you use your BMO Harris Rewards points. We are not
responsible for non-BMO Harris rewards programs.
2. For your available point balance or to make
a redemption visit bmoharris.com or call the
Redemption Center.
3. Points earned during a billing cycle are not eligible
for redemption until they are posted on your monthly
billing statement and transferred to your available
points balance.
4. Only you may redeem points. Rewards, including
airline tickets, may be issued in the name of another
person designated by you.

BMO Harris RewardsSM Program Rules

12

(June 22, 2021 / 08:31:33)

121264-2_BMO-50360071_ConsumerRewardProgram

5. Points may not be used with any other discount or
coupon offer. Points may not be used as payment
for any obligation owed to us, unless otherwise
permitted in special promotional offers. No cash
refunds will be issued on redemption of points.
6. Unless otherwise specified, all rewards are sent to
your statement mailing address postage prepaid.
7. All rewards are subject to availability and fulfillment
fees, if and when they are applicable. Rewards may
be discontinued or withdrawn without notice. The
redemption value of rewards may be changed at any
time without notice.
8. Neither us, our affiliates, nor Third Party Service
Providers are responsible for lost, stolen, or damaged
correspondence or documents.
9. You have sole responsibility for any charges over
and above the stated value of the gift cards,
merchandise, airline tickets, car or hotel reservations,
experiences, cruises or vacation packages.
10. Points have no cash value.
11. After you book any travel reward reservation using
your points, please contact the Redemption Center
regarding changes, re-scheduling, or any additional
services pertaining to your reservation.
12. You may elect not to use points for the full amount of
a travel reward. The difference between the amount
of the travel reward and the points redeemed will
be charged to the BMO Harris Bank credit card
you designate.
Rewards
Airline Tickets
1. You may redeem points for a scheduled ticket on
a major airline carrier, providing that the fares,
schedules, and ability to generate an electronic
ticket are possible through the BMO Harris
Rewards program.

13

Credit Cards

(June 22, 2021 / 08:31:33)

121264-2_BMO-50360071_ConsumerRewardProgram

2. Reservations for airline tickets must be available
through the BMO Harris Rewards program at the
time of booking.
3. Participating air carriers are subject to change.
4. Reservation and ticketing must be completed at time
of redemption.
5. Tickets may be redeemed in any individual’s name.
The names of all passengers must match their
government-issued ID and most airlines do not
allow changes to passenger names once a ticket
has been issued.
6. Airline ticket rewards may not be used in conjunction
with any type of coupons, vouchers, Internet fares or
companion fares.
7. All taxes and the September 11th Security Fee are
included in the stated fare. Any applicable baggage
fees or any additional charges by the airlines are
the responsibility of the passenger and will be billed
separately by the airline. All travel itineraries and
supporting documentation,will be sent via email and
may be accessed through, your BMO Harris Rewards
account online.
8. Airline tickets are non-refundable and nonchangeable
unless permitted by the terms of the fare. If changes
to an itinerary are later necessary, you may contact
the Redemption Center with your request. Changes
may incur additional costs such as airline penalty
fees, increased fares, and service fees that will be
applied to your BMO Harris Bank credit card that you
designate. In the instance that a refund is due, it will
be processed within 4 to 6 weeks and will post in
the manner in which redemption was made (e.g.,
if reservation was made with all points, it will be
refunded in points).
9. The Bank, our affiliates and Third Party Service
Providers are not responsible for any lost or
damaged luggage.

BMO Harris RewardsSM Program Rules

14

(June 22, 2021 / 08:31:33)

121264-2_BMO-50360071_ConsumerRewardProgram

10. The Bank, our affiliates and Third Party Service
Providers are not responsible for communication of
airline schedule changes or the performance of any
Airline for tickets redeemed with points from the
BMO Harris Rewards program.
11. The traveler is responsible for obtaining the
appropriate international travel documentation, such
as passports and visas. Visit www.travel.state.gov
for passport and visa requirements. The Redemption
Center assumes no responsibility for advising
guests of proper travel documentation. The traveler
should have valid government-issued photo ID upon
airport check-in.
12. Travel rewards are forfeited for individuals who
are no-shows.
13. Airline policies are subject to change at any time
without notice.
Hotel Bookings
1.

You may redeem points for reservations at hotels
worldwide participating in the program.

2.

You must meet the eligibility requirements, such as
a minimum age restriction, established by the hotel
provider. Hotel policies and participation are subject
to change at any time without notice.

3.

Hotel reservations and associated costs or
cancellations are subject to the specific hotel
cancellation policy. If changes or cancellation to a
hotel reservation is necessary, you may contact the
Redemption Center with your request prior to check
in. Changes or cancellation may incur additional
expenses. If a refund is due, it will be processed
within 4 to 6 weeks and will post in the manner in
which payment was made (e.g., if reservation was
made with all points, it will be refunded in points).

4.

The traveler is responsible for obtaining the
appropriate international travel documentation,
such as passports and visas. The traveler should

15

Credit Cards

(June 22, 2021 / 08:31:33)

121264-2_BMO-50360071_ConsumerRewardProgram

have a valid government-issued photo ID upon
check-in that matches the name on the reservation
and will be required to present a credit card
for the incidental expenses such as parking or
room service.
5.

Restrictions may apply to hotel frequent
guest programs.

6.

Neither us, our affiliates nor Third Party Service
Providers are responsible for the performance
of any hotel provider.

Merchandise
1.

All merchandise reward orders are subject to
product availability.

2.

Merchandise rewards include applicable sales tax
and shipping and handling (via first-class mail,
ground delivery or motor freight service within the
continental U.S.).

3.

Merchandise will be shipped to your statement
mailing address if your address on file is within the
U.S. Shipments cannot be made to a post office box.

4.

For security reasons, parcel or motor freight
couriers may contact you to arrange delivery of
merchandise. It is your responsibility to respond to
the courier in a timely and reasonable manner to
facilitate the delivery process. Additional shipping
and handling fees for merchandise returned
to vendor due to your failure to make delivery
arrangements will be your responsibility.

5.

In-stock merchandise shown in the Catalog will
ordinarily be delivered within 4 to 6 weeks.

6.

Merchandise shown in the Catalog carries a 100%
satisfaction guarantee against workmanship defect
or shipping damage for 30 days from receipt of your
order. This does not apply to perishable items.

7.

If your package appears to be damaged upon
arrival, you should refuse the package if possible.

BMO Harris RewardsSM Program Rules

16

(June 22, 2021 / 08:31:33)

121264-2_BMO-50360071_ConsumerRewardProgram

If it is not possible to refuse the package, contact
the Redemption Center within 24 hours of receipt.
Do not attempt to return an item or shipment
without first contacting the Redemption Center.
8.

Damaged merchandise is not returnable if
notification is delayed beyond thirty (30) days.

9.

Merchandise will be replaced once the damaged
merchandise has been received from you.

10. For some products, the manufacturer does not
allow returns but provides warranty service. In such
a situation, you may receive instruction on how
to obtain warranty service rather than a complete
reward replacement.
11. We reserve the right to alter or substitute any or all
merchandise rewards (or change point value) at any
time without prior notification.
12. You may return the substitute reward to us at our
expense if it is unacceptable, and we will notify you
that your points, if deducted, have been restored.
13. We reserve the right to refuse to exchange
merchandise or refund points if an item is returned
without adhering to this return policy.
14. Neither us, our affiliates nor Third Party Service
Providers are responsible for the performance
of any merchandise or injury related to use of
merchandise redeemed with points from the
BMO Harris Rewards program.
Gift Cards
1.

These rewards may not be combined with any other
promotional offers.

2.

Gift cards are valid at participating merchants only
through the expiration date (when applicable)
printed on the gift card.

17

Credit Cards

(June 22, 2021 / 08:31:33)

121264-2_BMO-50360071_ConsumerRewardProgram

3.

Gift cards and will be subject to the gift card
suppliers’ terms and conditions and will have no
value except when used in accordance with those
terms and conditions.

4.

Gift cards will not be honored retroactively in
connection with any prior purchases, nor can they
be used as payment on existing Account balances
with either the participating merchant or us. Any
unused portion of a gift card will not be returned to
you or other recipient of the gift card in cash unless
otherwise so stated on the gift card or in the terms
and conditions accompanying the gift card.

5.

Gift cards are not refundable or exchangeable, and
they are not replaceable after issuance in the event
of loss or destruction, unless otherwise stated
on the gift card or in the terms and conditions
accompanying the gift card.

6.

Gift cards valued under $250 will be sent by U.S.
Postal Service and those valued at $250 or more
will be shipped by courier. BMO Harris Bank Gift
Cards will be shipped first class by the U.S. Postal
Service, regardless of dollar amount. Gift cards will
be shipped to your statement mailing address if
your address on file is within the U.S.

7.

These rewards are void where prohibited by law.

8.

Federal, state and local taxes on gift card purchases
are your sole responsibility unless otherwise stated
on the gift card or in the terms and conditions
accompanying the gift card.

9.

Neither us, our affiliates, nor Third Party Service
Providers are responsible for any merchant
performance or performance of goods or services
purchased with the gift card or for failure of any
merchant to perform due to bankruptcy, insolvency
or any other reason.

BMO Harris RewardsSM Program Rules

18

(June 22, 2021 / 08:31:33)

121264-2_BMO-50360071_ConsumerRewardProgram

Cruises
1.

You may redeem points towards cruise passage on
any major cruise line available through the Catalog.

2.

Cruise packages may only be booked through the
Redemption Center.

3.

You must meet the eligibility requirements
established by the cruise provider.

4.

Once cruise booking is confirmed, no interim price
reductions will be considered or offered.

5.

All cruise rewards are non-refundable.

6.

Changes may be made up to 90 days prior to sailing
(120 days for holiday and special event cruises).
Changes under 90 days (120 days for holiday and
special event cruises) may result in forfeiture of the
reward.

7.

Travel rewards are forfeited for individuals who are
no-shows. Any changes may result in service fees
and additional fees imposed by the cruise line; you
will be notified of such fees in advance.

8.

Cruise rewards may not be used in conjunction with
any type of coupons, vouchers or group rates.

9.

All reservations are subject to the conditions of
carriage, supply or business of the service provider,
which include exclusions and limitations of liability.

10. Proper travel documentation is required at
embarkation and throughout the cruise. Even
though a traveler has registered online, it is still the
responsibility of the traveler to present the required
travel documents at the time of embarkation.
Traveler should check with www.travel.state.gov
to determine the travel documents necessary
for each port of call. Any guest without proper
documents will not be allowed to board the vessel
and no refund of the cruise fare will be issued. The
Redemption Center assumes no responsibility for
advising guests of proper travel documentation.

19

Credit Cards

(June 22, 2021 / 08:31:33)

121264-2_BMO-50360071_ConsumerRewardProgram

11. Neither us, our affiliates nor Third Party Service
Providers are responsible for the performance of
the cruise line.
Car Rentals
1.

You may use points for car rental reservations with
select car rental companies listed in the Catalog.
Car rental reservations will be prepaid at the time
of booking and payment for costs not covered by
the use of points will be charged to the BMO Harris
Bank credit card you designate.

2.

In addition to the daily rental rate, fees and taxes,
you are responsible for any other charges not
included in the daily rental rate, including, but not
limited to costs for damages to the vehicle and
accessories or incidentals (e.g., child seats, GPS, etc.).

3.

Please review car rental terms and conditions for
cancellation policies. If you are a no-show, all points
and any additional payments for the rental made by
BMO Harris Bank credit card will not be refunded.

4.

You will not receive a credit or refund for any
unused portion of your rental period unless where
prohibited by law.

5.

All reservations are subject to the terms and
conditions of carriage, supply or business of the
service provider, which may include exclusions and
limitations of liability.

6.

Neither us, our affiliates nor Third Party Service
Providers are responsible for the performance of the
car, car rental company, or any services or features
provided by the car rental company.

Experiences
1.

All reservations for experiences will be subject
to the merchant’s terms and conditions for any
scheduling restrictions, such as maximum group
size or time and date availability.

BMO Harris RewardsSM Program Rules

20

(June 22, 2021 / 08:31:33)

121264-2_BMO-50360071_ConsumerRewardProgram

2.

The merchant has sole responsibility for honoring
any reservation, any of the merchant’s customer
loyalty programs, and for the care and quality of all
services it provides to you.

3.

We do not facilitate nor are we liable for any special
requests you make of the merchant, which the
merchant may accommodate at its discretion.

4.

We will not provide a refund for any missed or
canceled reservation if you did not cancel or
reschedule according to the merchant's policies. It
is within the merchant’s sole discretion to provide
an alternative date and time for your experience
after a missed or canceled reservation. Once you
have scheduled your experience you will be subject
to the terms and conditions including those for
rescheduling, cancellation and no-shows.

5.

If your participation is conditional upon signing an
indemnity and release form with the merchant and
you decline to sign any document or fail to meet
requirements after scheduling, you will not be
eligible for any refund and may not be allowed to
participate in the experience.

6.

Merchants may also require compliance with other
conditions, including but not limited to conduct, and
failure to meet these conditions may result in you
being removed from the premises and unable to
participate in the experience without a refund.

7.

Neither us, our affiliates nor Third Party Service
Providers are responsible for the performance of
the merchant.

Vacation Packages
1.

21

You may redeem points towards any vacation
package offered through the BMO Harris
Rewards Program.

Credit Cards

(June 22, 2021 / 08:31:33)

121264-2_BMO-50360071_ConsumerRewardProgram

2.

Vacation packages may only be booked by calling
the Redemption Center and specialty agents that
can assist with booking vacation packages are
available 8am-5pm Central Time, Monday-Friday.

3.

Once the vacation package booking is confirmed,
no interim price reductions will be considered
or offered.

4.

Changes may be made up to 90 days prior to travel
(120 days for holiday and special events). Changes
under 90 days (120 days for holiday and special
events) may result in forfeiture of the reward.
Changes are subject to availability and may result
in service fees and additional fees imposed by
the provider; you will be notified of such fees
in advance.

5.

Travel rewards are forfeited for individuals who
are no-shows.

6.

Vacation packages may not be used in conjunction
with any type of coupons, vouchers or group rates.

7.

The difference between the amount of the vacation
package and the points redeemed will be charged
to the BMO Harris Bank credit card you designate.

8.

All reservations are subject to the conditions of
carriage, supply or business of the service provider,
which include exclusions and limitations of liability.

9.

Proper travel documentation is required throughout
the tour. Even though a traveler has registered
online, it is still the responsibility of the traveler
to present the required travel documents at the
time of departure. The traveler is responsible for
obtaining the appropriate international travel
documentation, such as passports and visas. Visit
travel.state.gov for passport and visa requirements.
The Redemption Center assumes no responsibility
for advising guests of proper travel documentation.

BMO Harris RewardsSM Program Rules

22

(June 22, 2021 / 08:31:33)

121264-2_BMO-50360071_ConsumerRewardProgram

10. Neither us, our affiliates nor Third Party Service
Providers are responsible for the performance of the
travel provider, tour operator or any service vendor.
Statement Credits
You may redeem points for a statement credit that may
be applied to an eligible account you designate at the
Bank. Rewards redeemed to a BMO Harris Checking,
Savings, or Money Market account will be credited to
that account 7-10 business days after your redemption
request. Redemptions to BMO Harris Checking, Savings
or Money Market accounts may be considered taxable
income from BMO Harris Bank in the tax year in which
you redeem the points. BMO Harris Bank may be
required to send you a Form 1099-MISC for the year in
which you redeem.
Please allow up to 7 to 10 business days after
redemption for the statement credit to post to your
Account. Statement credits will not be applied towards
reducing the minimum payment due on your Account.
Statement credit denominations and point valuations
specific to your Rewards Card can be viewed by logging
in to bmoharris.com and clicking View and Redeem
from the Account Details screen. In the case of pooled
accounts, the statement credit will be applied to the
Account that is logged in at the time the statement
credit redemption is made.
Rev. 07/21

23

Credit Cards

(June 22, 2021 / 08:31:33)

121264-2_BMO-50360071_ConsumerRewardProgram

Questions?
Online
Log in at bmoharris.com then click "View and
Redeem" from your Account details screen.
Online access is available 24 hours a day,
7 days a week to view your available
balance or make a redemption.
Phone
Call the Redemption Center at
1-800-610-8987 for rewards program information.
Redemption Center hours of operation
are from 8 a.m. to 8 p.m. Central Time,
seven (7) days a week, excluding
federal holidays.

BMO Harris RewardsSM Program Rules

24

(June 22, 2021 / 08:31:33)

121264-2_BMO-50360071_ConsumerRewardProgram

(June 22, 2021 / 08:31:33)

121264-2_BMO-50360071_ConsumerRewardProgram

(June 22, 2021 / 08:31:33)

121264-2_BMO-50360071_ConsumerRewardProgram

Talk with us

1-800-610-8987
Learn more

bmoharrisrewards.com

Mastercard® and the Mastercard Brand Mark are registered
trademarks of Mastercard International Incorporated.
Banking products and services are subject to bank and credit
approval and are provided by BMO Harris Bank N.A. Member
FDIC. BMO Harris Bank® and BMO Harris® are trade names
used by BMO Harris Bank N.A.
©

2021 BMO Financial Group.

50360071

07/21-0177

F03-W649-0-0621

BMO Harris Bank Mastercard® Gift Cards are issued by BMO
Harris Bank N.A. pursuant to a license by Mastercard International
Incorporated and are NOT FDIC insured.

